                     HEALTH CARE ON WHEELS





       .." SlaVrC'
  01




   ""'''a


OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS

                                              JULY 1990
               HEALTH CARE ON WHEELS





                     Richard P. Kusserow
                     INSPECTOR GENERAL




OEI- 05-89-01332
                                           JULY 1990
                                    EXECUTIVE SUMMARY

 PURPOSE
 This report provides a description of health care providers that serve medically
 underserved and uninsured populations in public settings , or that make physician
 housecalls.
 BACKGROUND
 This is one in a series of reports on mobile health servces. Two other reports provide:
 (1) a national overview of the types and prevalence of mobile health servces
                                                                                 , the quality
 of these servces , and the degree of regulation; and (2) a description of the prevalence
 conduct and regulation of public cholesterol screening.
 We conducted these studies in response to a request by the Chairman of the House
 Subcommttee on Regulation and Business Opportunities. The studies provide
 information concerning mobile health services: servces offered outside the traditional
 settings of a hospital , clinic , or physician s office.
While gathering background information , we heard of a few providers attempting to
improve access to health care by taking their servces to patients
                                                                      , rather than waiting for
patients to come to them. We decided that these highly innovative servces deserved
closer look.
 We found in our discussions with these providers that, while the profit motive was clearly
at play in some instances , there was also a strong undercurrent of altruism.
                                                                                They believe
not only that mobile services such as theirs are viable , but that they constitute the only
way that some people will receive any health care at all. They are
                                                                        commtted to
providing high- quality    care , and they also believe that mobile servces like theirs can save
health care costs ,   either by preventing or postponing institutional care or by forestalling
the development of serious health problems.
METHODOLOGY
We visited a unique unit run by the National Center for Health Statistics. There we
learned about the special characteristics of a mobile operation. We conducted
with 30 individuals , including Federal officials
                                                                                   interviews
                                                  , the Office of Technology Assessment
(OTA), and 19 providers of mobile health servces. We also visited three of the housecall
providers to observe the delivery of servces.
  FINDINGS
       . A     few highly innovative providers , using vans , are going to a wide variety of
            public settings to deliver health care services to medically underserved and
            uninsured groups.


            Some providers , including for- profit companies and non- profit hospitals
                                                                                       , are
            making physician house calls. Most , though not all , are delivering primary  care
            to the elderly.


            Few of the mobile health servces described in this report are subject to special
            State or Federal regulations which address their mobile nature.
            Providers say that the greatest benefit of their mobile servces is that they
            reach people who would not otherwse seek or receive health care.
            Providers believe that , by focusing heavily on prevention,
                                                                       their mobile health
            servces wil lead to health care cost savings in the long run.
           Despite the growing interest in providing mobile health servces
                                                                           , lack of public
           recognition and problems related to financing and Medicare reimbursement
       may limit their future growth.

 RECOMMENDATIONS

The    ublic Health Servce (PHS) should study the costs and benefits of mobile
                                                                                    van and
physician housecalls. Particular consideration should be given to supporting
demonstrations and experimental projects. These should be evaluated with respect to:
(1) access to care; (2) the quality of servces; (3) the impact of servces

question of disease prevention; and (4) the costs of servce delivery. , including the

In implementing the new physician payment system under Medicare
                                                                 , the Health
Financing Administration (HCFA) should carefully consider the appropriate     Carefor
                                                                          weight
payments for physician primary and urgent care housecalls.
COMMENTS
The PHS generally supports our recommendation to study the costs and benefits of
mobile vans and physician housecalls. However , instead of initiating demonstration
projects , they prefer , through the Agency for Health Care Policy and Research
applications from the health care research community to study                   , to solicit
                                                                  how mobile health
servces delivery can impact access on health care
                                                    , particularily for disadvantaged and
rural populations.
The HCFA concurs with OUf recommendation and will evaluate medicare reimbursement
for physician house calls under the new physician payment system.
We wish to thank those in HCFA and PHS who commented on the report.
made technical changes based on PHS' s comments. A complete text of theirWe have
                                                                          comments
can be found in Appendix C.
                      ..........             ................
                        ..........................            ..... ..................
                                                   ..................... ........ ......          .......................
                                 .................................................................... ...........................




                                              TABLE OF CONTENTS


  EXECUTIVE SUMMARY

 INTRODUCTION........................................... ..... ............................... 

                                                                                                           ......... ................. 1



       Purpose.................................................. ......... 

                                                                                 ....................... ........... ................. 1



       Background.......... .............................. 

                                                                   ........ .................. ................ ............ .......... 1



       Methodology...................................................................................................... 2

 FINDINGS. ....... 

                                                                                      ........ ........... .......... ................. 3

      A few highly innovative providers , using vans, are going to a wide
      variety of public settings to deliver health care services to medically
      underserved and uninsured groups
                                                                   ................................................................ 3

      Some providers , including for- profit companies and non-
                                                                        profit
      hospitals, are making physician housecalls. Most , though not all
      are delivering primary care to the elderly................................................. 5

      Few of the mobile health services described in this report are

      subject to special State or Federal regulations which address

      their mobile nature ......
                                                       ............................................. 10

      Providers say that the greatest benefit of their mobile services is
      that they reach people who would not otherwise seek or receive
      health care.......................................................................... .............................. 10

     Providers believe that , by focusing heavily on prevention , their

     mobile services wil lead to health care cost savings in the

     long run ... 


     Despite the growing interest in providing mobile health services,

     lack of public recognition and problems related to financing and

     Medicare reimbursement may limit their future growth 


RECOMMENDATIONS .................. .......... ........ .... 

                                                                          ............................................... ...... 14
APPENDICES

     APPENDIX A: List of Providers Contacted ............................................... 

                                                                                                                                A-1
                                ..........................................................




APPENDIX B: Typical Operating Characteristics of Mobile
Health Services in Public Settings
APPENDIX C: Health Care Financing Administration and                                         B-1
the Public Health Service Comments
                                     ..................................................... C­

                                       INTRODUCTION


  PURPOSE
  This report provides a description of health care providers that serve medically
  underserved and uninsured populations in public settings , or that make physician
  house calls.
  BACKGROUND
 This is one in a series of reports on mobile health servces. It constitutes a preliminary
 look at these tyes of services. Two other reports provide: (1) a national
                                                                               overvew of the
 tyes and prevalence of mobile     health servces , the quality of these servces , and the
 degree of regulation; and (2) a description of the prevalence , conduct and regulation of
 public cholesterol screening.


 This study was conducted in response: ) a request by the Chairman of the House
 Subcommttee on Regulation and Business Opportunities
                                                           , to provide information
 concerning mobile health services: services offered outside the traditional settings of a
 hospital , clinic , or physician s office.
 While gathering background information , we heard of a few providers attempting to
 improve access to health care by taking their servces to patients
                                                                   , rather than waiting for
 patients to come to them. We decided that these highly innovative servces deserved a
 closer look.
We found in our discussions with these providers that , while the profit motive was clearly
at play in some instances , there was also a strong undercurrent of altruism.
                                                                                They believe
not only that mobile services such as theirs are viable , but that they constitute the only
way that some people wil receive any health care at all. They express a strong
commtment to providing high- quality care , despite the difficulties inherent in a mobile
operation. They also believe that mobile servces like theirs can save health care costs
either by preventing or postponing institutional care or by forestalling the development
of serious health problems.
Federal funding of mobile services such as these is minimal at present.
                                                                           The PHS
provides grants to approximately 550 community and migrant health centers and other
not- for- profit agencies for services to the medically underserved.
                                                                     Include in this figure
are 109 Health Care for the Homeless programs created by the Stewart B. McKinney
Homeless Assistance Act of 1987. While some grantees have developed mobile
programs which use vans and use these funds for the salaries of staff who work in them
PHS appears to have awarded few grants for the actual development of programs using
vans. With regard to house calls , Medicare covers a variety of servces provided
home , over and above the home health care benefit. In 1987                         in the
                                                                  , Part B reimbursement for
these servces totalled about $1.1 bilion , just under 4 percent of all Part B servces.
ever , it is not possible to tell from the data what portion of these                    How­
                                                                   servces was provided by
physicians.
METHODOLOGY
During pre- inspection , we visited a unique mobile unit run by the National Center for
Health Statistics , which gathers data on the health status of Americans through direct
physical examination. There we learned first- hand about the special logistical
characteristics and requirements of a mobile operation.
Other information was gathered through interviews with 30 individuals, including
officials in PHS , the OTA , and 19 providers of mobile health servces. We also visited
three of the housecall providers , to observe the delivery of servces and talk with patients
and staff.
Appendix A contains a list of the providers contacted in the inspection.
                                           FINDINGS

 A Few Highly Innovative Providers, Using    ns, Are Going To A Wide    riety Of Public
 Settings To Deliver Health Care Services To Medically Under served And Uninsured Groups.
 Some providers across the country are using specially equipped vehicles , which they
 commonly call " vans " to provide access to health care to people who cannot or will not
 come to traditional stationary facilities for help. Some vans visit the homeless at shelters
 and transitional hotels , food pantries , parks , and " streets under bridges " in cities. Others
 serve migrant workers at the camps where they live during the growing season.
                                                                                     Stil
 others go to people in rural areas , low income housing units , churches , and " crossroads ­
 anywhere there are people. " Regardless of the          provider or target population
                                                    tye of
 respondents seem to share this philosophy: " If they don t come to us , boy, we go to
 them!"
The providers we contacted , most of them not- for- profit , include community and migrant
health centers , hospitals , county health departments , a social servce agency, and a
private company. Most have used vans for less than 2 years , although one has served
runaway teens with a van for 17 years.
Most vans operate a few days a week , visiting sites on a scheduled basis. Outreach
workers publicize the van extensively and set .uP appointments , often with the help of
staff from other community agencies. The servce area is usually the county or city where
the provider is based , although one doctor described her servce area as the "
                                                                               boondocks
of Montana " and a migrant program covers a 72 000 square mile area with a target
population of 95   000.
Most providers use vans to extend their servces to patients who cannot or will not come
to their permanent facilities for help: "The van extended the walls of the hospital to the
edge of the county. " Some are also beginning to use their vans in "
                                                                     off" hours on a pilot
basis to reach different patient populations. For example , a program which serves
homeless children has just begun to serve foster children as well. Another program that
serves runaway teens takes their van to elementary schools during the day, to conduct a
6-week drug education program for students.
Other providers are using vans to experiment with new approaches to delivering care.
midwestem university is developing a van program to reach pregnant women in the inner
city to try to reduce infant mortality. In the east , a private company visits a few com­
munities on a scheduled basis to dispense methadone to heroine addicts from a van. The
idea of using a van arose as an alternative to building a stationary clinic, which com­
munity residents opposed. The director says that the van not only eliminates the need for
patients to travel far to receive their dosage , but also frees them from drug dealers or ad­
dicts who may prey on them at a stationary site.
 Most program prr' ' ide some sort of health assessment and triage. But almost everyhere
 the ke services are screening and health education, both focused heavily on diease
 prevention.
 Patients seen by these mobile programs reportedly present myriad health problems
                                                                                         , most
 of them chronic rather than acute. Elderly patients in rural areas often suffer from heart
 disease , diabetes , or high blood pressure. Migrant workers and the homeless present a
 variety of maladies including wounds and abrasions , foot and skin infections
                                                                                , respiratory
 and gastrointestinal problems , and malnutrition. Homeless children frequently suffer
 from chronic ear infections. Many patients , adults and children alike , afe not immunized
 or are underimmunized , and subject to a host of diseases.
Almost all programs provide screening of some sort: to detect high blood pressure
hearing and vision problems , diabetes , cholesterol , colo-rectal cancer
                                                                          , cervcal cancer
(Pap smears), dental problems, or even sexually transmitted diseases or human
immunodeficiency virus (HIV). Dipstick urinalysis (done on board) and blood work-ups
are common. Samples are analyzed at a hospital or stationary lab.
Many programs perform a health assessment , such as a nursing physical
                                                                             , to evaluate
acute or chronic ilness. Some provide OB- GYN exams , pregnancy tests and well-
                                                                                         baby
care , and others provide dental exams and treatment. Many also provide triage or
treatment in some form; the most sophisticated of these programs is described by its
administrator as " a pediatric clinic on wheels. " Most programs dispense a few simple
over-the-counter medications such as aspirin or antacids , and provide patients with
prescriptions for other medications.
Immunization of both adults and children is a key servce of many programs. Many
respondents stressed the importance of immunization in terms of preventing
                                                                               disease.
No matter what the mi of services , respondents almost everyhere say that "
                                                                               teaching is
probably our biggest thing. " Respondents say that patient education is important
because " it's preventive " and helps patients avoid more serious problems in the future:
 We want to get people sooner rather than later. "   Staff discuss diagnoses and prescribed
regimens with patients , hand out printed information , and teach about hygiene, diet and
nutrition , or " safe sex. " They talk to admitted drug users about drug treatment and "
needle issue. " They may distribute toothbrushes and toothpaste , combs                   the
                                                                            , or vitamins in
conjunction with their teaching.
A ke component of every program is refe"al, not only to follow-up medical care but
                                                                                   also to
non-medical support services.
Respondents say that while most of their patients do not need hospitalization, many do
need follow-up medical care of some kind. Providers have developed networks with
other health care providers and social servce agencies to ensure that their patients get
the referrals they need. Where possible , staff refer patients to the provider
                                                                               s stationary
facility. But they also refer them to other providers such as physician
                                                                        or city and county
clinics. They try to ensure follow-up by making appointments for patients
                                                                            , recontacting
   them to remid them of appointments , and giving out bus tokens
   actually takng patients to appointments. One program accepts up , tax vouchers , or
                                                                      to three
   month from a patient who wants to ask questions or discuss problems.        collect calls a

  Many patients , particularly the homeless , are also referred to support servces which can
  help them get back on their feet: housing, employment assistance and mental health
  servces , for example. Providers have solid ties with other community agencies; some
  respondents commented to the effect that their mobile program is "
                                                                         a community effort
  from beginnng to end. " Sometimes there are formal contracts and written procedures.
  For example , a university program to combat infant mortality has written memorandums
  of agreement with hospitals and community agencies that will serve as official
  co-sponsors of the van program. For the most part , however
                                                                 , providers say that they have
  had informal but close working relationships with other agencies for years
  our system pretty well."                                                     , and " we know

  Appendix B contains a description of other
                                             tyical     operating   characteristics of these

  providers.

 It is expensive to establish mobile health programs.
                                                         Start-up funds usually came from local
 sources, including private donations.
                                        In some program, Federal funding covers some of the
 operational costs, usually a portion of staff salaries.
 Discussions revealed that it can cost $100 000 or more to purchase and equip a van
 prices are increasing. One respondent said that their van had cost $47
               , and

 it was refurbished in 1987 , she learned that the same van                00 in 1982;  when
                                                            , bought new , would cost three

 times that much. Maintenance is also expensive. The director of the program which has

 used vans for 17 years reports that maintenance costs
                                                        between $2 00 and $5 00 a year
 depending on the age of the van. To control costs , respondents emphasize that it is
 important to find someone who " is in love with the van
                                                           " and will take meticulous care of
it. "   You ve got to be on top of it.
In starting up their programs , most providers bought and retrofitted vehicles with funds
from local sources: agency grants , hospitals
                                              , universities , city, State or county funds
corporate or foundation grants - in one case , the local foundation of the wife of a U., or
Senator. A few vehicles were donated to providers - by local health departments
                                                                                ,a
rancher , and even a famous singer-songwiter. Only one provider in our sample had
received Federal funding to purchase a vehicle. Operating funds also frequently come
from local sources , although community and migrant health centers which receive funds
from    PHS   sometimes use them to pay the salaries of staff who work
                                                                          in a van. A few
programs receive some Medicaid reimbursement.
Most of these progfam provide services free of charge or for a nominal fee.
                                                                            In to
a doctor reported that patients have paid him in everyhing from pocket change  Arzona
                                                                                  tortil­
las.
                 ,"                 ,"




  Some Providers, Including Both For-rroJlt Companies And Not-
                                                               For-Profit Hospital, Are
  Makng Physician HOUsecalls. Most, Though Not All
                                                                   , Are Delivering Primar Care To The
  Elderly.
  One private company has made physician housecails for 


  the elderly.
                                                                        year, providing primary care to
  A company in Kentucky provides physician house calls in three cities under a franchise
  arrangement. Its founder and president says that a franchise is easy to administer as well
  as a good tool to ensure quality control.
  The president has extensive experience in home health care and established her servce
 to provide access to care to the homebound elderly, a population which
                                                                        , she says , poses
 special problems for physicians: " Every doctor has patients who are homebound
 been the doctor s dilemma for some time how to accommodate those patients. , and it
 home health agency needs a company like mine to fil the gap.                    Every
 The servce operates 12 hours a day, 7 days a week
                                                     , with a 24- hour anwering servce.
 Eighty- five percent of the patients are Medicare recipients; one-third of these Medicare
 patients also receive Medicaid.
 Most patients are referred by their primary care
                                                     physicians. Contracted physicians

 usually family practitioners and internists , use their own cars to visit homes
 a bag. Each physician visits between 8 and 10 patients a                        , carryng only
                                                               day, providing primary care.
clinical laboratory and a radiology service that also make home visits provide back-up,
furnishing test results the day of, or the day after
                                                     , a visit. The president says that this
arrangement has worked very well. Physicians do not carry drugs
prescriptions to pharmacies that deliver. At the end of each visit , but call in
completes a chart , as would be done in a regular office               , the physician
                                                            , and a copy is sent to the referring
physician.
The president described several measures which have been instituted to monitor quality

of care on an ongoing basis: (1) a medical director in each office is responsible for

overseeing care; (2) a retrospective peer review of servces is conducted monthly; and

(3) patients are phoned 2 weeks after a call to evaluate the outcome.
president recognized that primary care physicians might be concernedIn        addition , the
                                                                            lest visiting
physician " steal" their patients , so visiting doctors are not allowed to give patients
addresses and phone numbers or follow them into the hospital. For patients who need       their
hospitaliztion but have no personal physician

                                                            , the company has a panel of physicians
who have agreed to accept referrals.
She report that community acceptance of her servce has been good.
perspective it's a very popular service. " Recruitment of              From the patients
                                                          visiting physicians has been
easy, since , in her view many physicians today prefer to wOfk
                                                               in health maintenance
organizations (HMOs), group practices and other alternatives to private practice.
State where she operates , she can guarantee physicians an                              " In the

                                                                anual   salary of over
for 8 calls a day, 5 days a week. Demand is reportedly growing. The president projects $70
that , in one city alone , visits will grow from 12 000 in 1988 to as many as 20
                                                                                        00 in 1989.
   Some hospital- based programs are also making housecalls, to deliver primary care to the
  frail elderly.


   We visited two not- for- profit hospitals that have been making house
                                                                          calls to the frail
   elderly for 4 to 5 years. At one hospital , the program is a component of the hospital'
   multi- faceted senior servces program , at the other , the program is a department of the
   hospital. Both programs were established upon the recognition that there was a
   and growing population of homebound elderly who needed primary care. The
                                                                                         large
  administrator of one program , which began as a model with a special grant from a
  community agency, said: " We realized that we had an underserved population with
  disjointed care.


  Patients are the frail , homebound elderly: anyone over 65 " who cannot or will not go out
  and has a physical or psychosocial disability. " Many are in their
                                                                      80s and 90s. Two of the
  patients seen during our visits were a woman in her 80s who
                                                                  takes 14 prescription

  medications due to her heart condition and numerous other health problems

  diabetic man in his 60s recovering from a recent heart attack                 , and a

                                                                , who had an ulcer on his
  foot. All of the patients we saw were being cared for by a family member or
 caregIver.                                                                        other live­

 About a quarter of the patients are referred by physicians
                                                             , the rest by community
 agencies , friends , or family. A physician and nurse with experience in geriatric medicine
 use vans to visit homes on a scheduled basis , delivering primary care. A portable x-ray
 servce provides back-up, and blood and urine samples are analyzed back in the hospital.
 One program initially did some lab work in the van but gave it up after a year
                                                                                 , not
 satisfied with the quality of test results and finding that they needed to do more
                                                                                tyes of
testing than was possible within the confines of the van. Neither program dispenses

prescription drugs , although one respondent noted that they are considering doing so.

Charts are kept at the hospital , carried to homes and updated back at the hospital
following visits. One program also keeps a folder in the home with progress notes
updated by the team as well as visiting nurses , which respondents find helpful in
coordinating care. One van has a telephone , which staff say is indispensable in
communicating with patients and caregivers as well as responding to pages from the
hospital.
Staff exame and treat patients , review medications on the spot
caregivers , and assess the living situation of patients.
                                                                    , counsel and support
                                                          They often pick up subtle clues on
how a patient is doing. One nurse found handmarks on the wall which indicated that a
patient had become unstable on her feet. And a physician noticed that a patient plagued
by persistent pneumonia was using the same bottle over and over to
                                                                    refil a nebulizer.

The bottle contained bacteria. The doctor said: " I wouldn
                                                           t have known had I not seen
it. "

Delivering care in the home poses special problems such as poor lighting or marginal
hygienic conditions. A doctor noted: " I may have a sterile field
                                                                   , but I can t control the
roaches. " Also , it can be emotionally wrenching for staff to see patients cryng
                                                                                    from
  loneliness , or to tell a patient that he must go to a nursing home. A program
                                                                                 director
  said: " You must have a dedicated group of physicians. It s not for everyone.
 Despite the problems , respondents believe that " we are providing better care
                                                                                , and can do
 a better job in the home setting. We know how they (the patients) get
                                                                            by day to day, why
 they may be depressed. We observe the social issues. " They demonstrate excellent

 rapport with patients and seem to enjoy their work. " You get out of the office
                                                                                 , get to

 know your patients , have tea with them       them good- bye. " Patients and caregivers
                                             kiss

 seemed to like the service and be grateful for it.
 Respondents say there is another key facet to the success of their programs: close

 coordination with community agencies that provide non-medical support 

                                                                            servces to
 patients. They say that this " holistic" approach to meeting both the medical and social

 servce needs of their patients helps keep them at home as long as possible
                                                                             , avoiding

 unnecessary, and expensive , hospital or nursing home care.
 Demand for servces is reportedly strong and growing. One respondent projected 1
 visits for 1989 , and another noted that her program s patient load grew from 600 in 500
 to a projected 1 300 in 1988. " There s a huge demand out there. We could be swamped.
                                                                                      1984
 They wil add a second van soon.
A private company in the West runs a "comprehensive housecall" service, using a specially

equipped van to visit people of all ages in their homes to provide urgent care.

 We visited a company in California developed by a physician who saw the need for a
servce which provided physician care in the home for patients who were injured
chronically il ,   or suffering from non- life-threatening medical problems. He labels his
servce a " comprehensive housecall."
The founder describes his service this way: " I built a van that gave a doctor his tools and
put emergency physicians into the van. We can take an x-ray, and do an EKG and blood
tests and have the results immediately. We can sew up somebody
                                                                    s wounds , give
injections and dispense medications. " A specially trained technician works with the
physician.
The company has a non- financial contract with a local hospital , where it is based. The
hospital' s name appears on the van , and the service refers some patients who need
hospitalization to them. The service operates 12 hours a day, 7 days a week
the entire community. Patients may call for help themselves or be referred ,by  and serves
                                                                                  their
physician.
The van cares extensive diagnostic and treatment equipment , and 55 prepackaged
medications. The physician uses a cellular phone to talk with patients and the base office
while under way. Charting and biling are completely computerized
                                                                       , which the president
considers one of the best and most unique features of the servce. 

                                                                        The physician dictates
a chart in the van at the end of each visit. It is transcribed back at the hospital and copies
are sent to both the patient and his or her primary care physician. The computer also
generates coded bils ready to be dropped in an envelope and mailed.
  .Jvml; Vi mc pauems we met were: (1) a man in his 70s who had fallen at home and cut
  his head; the cut was sewed up in a 23 minute call , avoiding an emergency room visit; (2)
  an 81-year-old woman living alone , recovering from a broken pelvis; an x-ray taken with
  the patient lying on her bed showed that she was healing satisfactorily; and
                                                                               , (3)test
  80-year-old heart patient and his wife. The technician processed a cholesterol     a frail
                                                                                         while
  the doctor treated a wound , reviewed a blood pressure log kept by the wife

  discussed the drug regimen. He found that the patient was taking the             , and

  one of the medications.
                                                                             wrong dosage of

 To ensure high- quality servces , the medical director routinely reviews all charts using
 procedures followed in hospital emergency rooms. A detailed log is kept of all
 medications dispensed. In the van s mini- lab , detailed quality assurance procedures are
 followed and a second set of controls is run against hospital values to ensure accuracy.
 Laboratory equipment is as fail-safe as possible , much of it with solid state circuitry, and
 some was redesigned for use in the van. The van was designed around the equipment

 and is insulated and climate-controlled.

 The president believes that other features of his servce also enhance the quality of
 servces: (1) medical risk is greatly decreased because physicians can diagnose and then
 treat immediately; (2) seeing patients ' living situations first-
                                                                   hand often provides
 important information for both diagnosis and treatment; and
                                                                    , (3) supplying patients with
 a complete , readable copy of their charts is invaluable in helping     them comply with

 prescribed regimens.

Besides offering high- quality care , the president believes that "
                                                                    the comprehensive
housecall" leads to significant cost savings by enabling patients to avoid visits to the
emergency room or ambulance rides. To ilustrate , he points to his company
with the hospital' s Medicare HMO. The servce will                                 s agreement
                                                        visit HMO patients , upon referral
from their physician , who face a non- lie-threatening
                                                         emergency, at a flat fee of $200 per
visit. The HMO paid almost a million dollars last year for unauthorized emergency room
visits for its patients. Besides keeping patients within the hospital network
arrangement is an attempt to cut those costs. The flat fee will not            , this
                                                                       only save
$70 per patient as compared with last year , but in some cases will save $272
                                                                                 an average of
                                                                                 whir, the
HMO would pay for an ambulance ride.
Patients reportedly have fesponded very positively to the servce
                                                                , although the president
has found a need to market more aggressively than he expected to   potential patients.
Some elderly people fear alienating their primary care physicians
                                                                       by using his servce.
Others are proud, and afaid of being seen
                                              as sick or old if a van appears at their house.
Stil others assume that the servce is too expensive for them. As for younger people
many have had no prior experience with housecalls or are reluctant to let people
their homes.                                                                     into

The president believes that his
                                tye of servce can be used in a number of ways , such as
providing care to workers who are injured on the job
                                                     , providing aftercare to patients
discharged from the hospital , and providing primary care to the seriously or chronically
 ill. The company is poised on the brink of a multi- million dollar national expansion. It
 was featured on a national television program in August 1989 and has also been the
 subject of articles in national publications.
 Few Of The Mobile Health Services Described In This Report Are Subject
                                                                           To Special State
 Or Federal Regulations Which Address Their Mobile Nature.
 In response to questions concerning how they are regulated , respondents at all but two
 programs which target the medically underserved or uninsured pointed out that
                                                                                     , as
 medical facilities , their institutions already comply with State licensure requirements
                                                                                            and
 guidelines and are subject to routine inspection. When asked how they safeguard the
 quality of their mobile servces , they said that they apply the same protocols and
 procedures used in their stationary facilities. They added that nurse practitioners or
 physician assistants who work on vans are backed up in accordance with State
                                                                                 law by a
 physician at a stationary site.
 Two programs did have to meet special regulatory requirements:
                                                                        (1) the methadone
 program obtained a State license in order to comply with Federal requirements; the
 director noted that State regulators were somewhat nonplussed by the mobile operation:
  They couldn t fit us into a box; " and (2) a program which serves homeless children went
 through the State s certificate of need (CON) process; the administrator said that State
 officials were very " supportive. " (State CON requirements vary widely, although all
 programs require that health care facilities justify to the State the
                                                                       need for purchasing
 major medical equipment or building new additions or modifying their facilities. The
 CON process is slowly being phased out. It exists in 38 States.
With respect to the house call servces , only the company in Kentucky is subject to any
regulation as a mobile servce , per se. It went through the State CON process and is
licensed as a mobile health servce. The president said: " It was easy to represent the
need for a house call servce in the CON process. " She endorses
                                                                     CON because it
  provides a measure of protection to the public. " In contrast , the president of the other
company said that , while he has inquired about regulation with several public agencies
and private insurers, " there has been nothing in any form for Medicare
insurance , workman s comp, insurance for the offce or personnel             , malpractice
                                                                      , or certifcation that
ever come up that allows me to describe what I do. It means you could slide all the
through the surface and no one would ever know administratively that you          way
wheels. "                                                                re on four

Providers Say That The Greatest Benefit Of Their Mobile
                                                        Services Is That They Reach
People Who Would Not Otherwise Seek Or Receive Health Care.
Providers believe that their mobile programs overcome immobilty, physical and mental
frailty, poverty, language or cultural barriers , and fear or mistrust of providers which
serve as barriers to accessing health care for some people.
Providers who work with the medically underserved express concern about
number of Americans who find it difficult to access health care:            the growing
                                                                 (1) people in rural areas
especially the elderly, many of whom are immobilized by chronic
                                                                  ilness and live in
                    ,"      ,"




  isolated areas with few health care providers; (2) the " working poor
  population, " who lack 'health insurance or adequate coverage          " or " notch

                                                                 , do not qualify for

  Medicaid , and often postpone seeking health care because of the expense; and

  homeless people , for whom the need for health care is often overshadowed by ,the    (3)
                                                                                          search
  for food and shelter; respondents describe the lives of the homeless as "
  express special concern about homeless children , whose parents            chaotic " and
                                                                    , they say, often fail to
  recognize that the children need care.
 These providers say that rn0hile servces enable them to reach people with "
 desperate health care need:, who have often lost their trust of community really
                                                                               agencies and
 refuse to actively seek help. One said that " the van has brought a lot of disenfranchised
 people back into the health care system who need it. " They also point out that vans serve
 as an entree to non-medical servces which can help people get back on their feet.
 example , the director of a program for runaway teens calls her mobile program " For
 outreach we do. " To ilustrate , she said that while the van had about 2            the best
                                                                          300 medical visits
 in 1988 , there were over 7 000 non-medical visits
                                                    , where teens were counseled or
 referred elsewhere for housing or other help.
 Housecall providers say that housecalls fil a large and growing gap in health care
 especially given the increasing numbers of elderly in the population.
 noted further that I think doctors are becoming more interested        One respondent
 of the older population.                                          , also    , given the groWth

Providers Believe That, By Focusing Heavily On Prevention, Their Mobile
                                                                        Health      Services
Will Lead To Health Care Cost Savings In  The Long Run.
Those who target the medically underserved believe that their servces save health care
costs in the long run by preventing disease or the development of serious health
problems which would require emergency care or hospitalization. "
prevented the flooding of emergency rooms with sick                    The van has
                                                        people because we have treated
them before they got worse. I think we have saved immeasurable dollars.

                                                                             " In discussing

the cost of health care provided to indigents   , a January article in the
                                                                        Washington Times

said that , across the U.   such care cost hospitals $8.3 bilion in 1988 -
                                                                           almost a

three- fold increase over 1980.

These respondents also tout the benefits of using
                                                   vans for health education: ' :A far as
prevention, if you don t have a way to go to the people
                                                        , especially if they aren t reading
papers and watching 1V and getting mail , you ve got to have a van.
                                                                       " They point to
pregnant teens, or people with AIDS , as examples of people who will not visit traditional
providers , and say: " You ve got to get out there to where they are.
Housecall providers contend that , if globally accepted
                                                       , house calls could lead to
significant cost savings relative to institutional care by: 

                                                         (1) keeping patients out of the
hospital or nursing home as long as possible; (2) enabling some patients to avoid
unnecessar ambulance rides or emergency room visits; and
                                                         , (3) providing aftercare to
hospital patients , allowing for earlier discharge.
 Despite   The   Growing Interest In Providing Mobile Health
                                                     SelVices, Lack Of Public
 Recognition And Problems Related To FinancingAnd Medicare Reimbursement   May Limit
 Their Future Growth.
 To date ,   the tyes of mobile health services described in this study appear to be few in
 number and at an embryonic stage of development. Respondents seek recognition that
 their servces are both necessary and effective , not only from the general public
                                                                                     , but from
 the health care community, the insurance industry, and government agencies. Many
 express disappointment that their programs remain largely unkown outside         the

 geographic areas they serve.

With respect to providers who target the medically underserved , we talked to PHS staff
in the Bureau of Health Care Delivery and Assistance , Division of Primary Care for their
Jpinions regarding the viability of such services and their attitudes towards funding them.
On the question of viability, these respondents expressed mied opinions
                                                                             , especially
about the delivery of primary care by mobile programs. While they acknowledge the
existence of a growing transient population for whom traditional medical models are not
appropriate , they also look somewhat askance at mobile programs because "
access (to care) all the time. " Mobile programs , by their very nature          people need
                                                                        , do not provide such
continuity of care.
While it appears that these reservations , along with concerns about the costs of mounting
van- based programs , have led the office to deny most of the requests received to date for
funds to purchase vans , this may be changing. The FY 1991 budget projects a $2 million
increase in funding for community and migrant health centers. The funds are for the
purchase of vehicles which will increase access for mothers and pregnant women to
prenatal and other health care servces (so called " Mom Vans
                                                                 ). This is part of a special
maternal and child health/infant mortality initiative on access.
All of the house call providers say that low reimbursement , especially Medicare
reimbursement , hampers their expansion. They say that Medicare reimbursement rates
are inadequate because they fail to take into account their special administrative costs
such as screening and otherwse handling calls, or developing and monitoring contracts
with staff physicians. The president of the comprehensive housecall company said
further that Medicare reimbursement codes are " totally inappropriate
                                                                        " because they are
based on the assumption that the . physician is providing primary, not urgent
                                                                              , care.
The issue of inadequate Medicare reimbursement is particularly important to the
hospital program , since the bulk of their reimbursement comes from Medicare and
Medicaid. One respondent said that it has been hard to interest some physician in
working for the program because Medicare reimbursement is lower for her program
housecalls than for home visits made by the local visiting nurse agency. Both programs
survve because of supplemental grants from local agencies and the willngness of the
hospitals to carry the deficit , perhaps in part because , according to respondents, the
programs generate admissions.
             , "





The presidents of both house call companies said that they have made numerous attempts
to discuss reimbursement with both Government agencies and insurers
words of one it was not of great interest to them.                           , but that , in the
                                                     " In their view , until existing
reimbursement mechanisms , especially Medicare , are adjusted to match the special
characteristics of their servces , physician housecalls will not become a viable form of
health care delivery.
                                    RECOMMENDATIONS


 The PHS Should Study The Costs And Benefits Of Mobile Vans       find Physician Housecalls.
 Panicular Consideration Should Be Given To Supponing Demonstrations And Experimental
 Projects. These Should Be Evaluated With Respect To:
                                                         (1) Access To Care; (2) The Quality
 Of SelVices; (3) The Impact Of SelVices, Including The Question Of Disease Prevention;

 And   (4)   The Costs Of SelVice Delivery.

 The Secretary has established three special initiatives which we believe are relevant to
 the servces described in this report: (1) make long-term reforms in the health care
 system to improve access overall; (2) improve access to health care for minority women
 and children; and , (3) better assist homeless families and children.
 All of the respondents in this study believe that their mobile servces improve access to
 health care , and are cost-effective in doing so. While some of them say that they have
 data which , they believe , support that contention , none has yet conducted a controlled
 study documenting the actual costs and impact of their servces.
We recommend that PHS conduct demonstration projects and controlled studies of a
broad range of mobile servces: servces to underserved populations
                                                                        , including the
working poor , homeless , migrants and people in rural areas; and house calls
                                                                               , including
their use in the provision of hospital aftercare. The following factors
                                                                        , at a minimum
should be assessed: the number and tyes of patients served and the health problems
they present; the cost of servce delivery; the quality of servces; and , the impact of

services , especially the degree to which they prevent disease , and prevent or delay a need

for institutional care.

In Implementing The New Physician Payment System Under Medicare
                                                                   , HCFA Should
Carefully Consider The Appropriate Weight For Payments For Physician
                                                                     Primary And
Urgent Care Housecalls.
The housecall providers contacted for this study all say they experience problems relative
to inadequate Medicare reimbursement. We recommend that HCFA, when
implementing the new physician payment system under Medicare , should determine if
reimbursement for physician housecalls , as they are described in the report
                                                                             , is fair and
appropriate.
COMMENTS
The PHS generally agrees with this recommendation. However , instead of supporting
demonstration and experimental projects      , they would prefer to support further research
and examine more case studies of mobile providers such as described in this report. To
accomplish this, they intend to solicit , through the Agency for Health Care Policy and
Research , applications focusing on how mobile health servces delivery can impact on
health care , particularly for the disadvantaged and rural populations.
The HCFA agrees with our recommendation and will evaluate the appropriateness of
reimbursement for physician house calls under the new physician payment system. The
complete text of the PHS and HCFA comments , can be found in Appendix C.
                                     APPENDIX A



                              List of Providers Contacted

Alameda County Health Care Services                   Oakland , CA
The Bridge Over Troubled Waters
                      Boston , MA
CALL- DOC Medical Group, Inc.
                        San Diego , CA
Cook County Department of Public Health
              Maywood , IL
Doctors to Your Door                                 Louisville , KY
Habit Management Institute                           Boston , MA
Highland County Health Department                    Hilsboro , OH
Ilinois Migrant Council                              Chicago , IL
Indiana University Maternal Outreach Mobile          Bloomington , IN
Montana Migrant Council                              Bilings , MT
Mt. Vernon Neighborhood Health Center                Mt. Vernon , NY
New York Children s Health Project                   New York, NY
St. Francis Hospital                                 Evanston, IL
St. John s Hospital                                  Cleveland , 0 H
Peekskill Community Health Center                    Peekskill , NY
Plan de Salud del Valle                              Ft. Lupton , CO
Swope Parkway Health Center
                         Kansas City, MO
University of Arizona Rural Health Clinic            Tucson , AZ
Private Physician (anonymous)                        North Dakota
                                          APPENDIX B


      Typical Operating Characteristics of Mobile Health Services in Public Settings
 Vehicles
 Vehicles , often referred to as " vans " by providers no matter what the tye
                                                                                , include
 specially designed or retrofitted vans , recreational vehicles , school buses , and even
 trucks. Most are brightly painted with the provider s name or logo. This often attracts
 considerable attention and even curiosity on site , which helps draw in some patients who
 might normally be reticent to seek help. Vans tyically contain an intervew or waiting
 room; one or two examination rooms; a laboratory area with a sink , centrifuge and
 supplies; and , a bathroom or changing room. Often , one area is designated for
 counseling or patient education , and there may also be a separate office where records
 are kept.
Some vans carry a portable dental x-ray, and one carries ultrasound equipment for
examining pregnant women. Some have phones , which staff use to consult with
physicians back at a stationary site or to make follow-up appointments.
                                                                          Most vans have a
generator , although providers prefer to connect to power at a stationary site because
generators are often noisy and expensive to run. Most vans also have air conditioners
heaters , and water tanks , though the water is mostly used to wash hands and equipment
rather than for drinking. Only a couple of vans have a wheelchair lift; some respondents
say that lack of a lift has been a problem in servng the elderly or handicapped.
Staffng
Core staff often consists of a nurse practitioner or physician assistant
                                                                         , with physician
back-up at a stationary site; an intake-worker or clerk, who may also drive the van; and
nurse. Physicians ,
                                                                                         ,a
                   dentists and dental hygienists , community health workers , health
educators , outreach or social servce workers , drug, alcohol , and mental health workers
and even nutritionists work on vans. So do medical , dental or nursing students; in
Arizona , a female pre-med student both administers the program and drives the 33' ten
ton truck. Some programs also use volunteers , whether health professionals or
community residents.
When asked what attributes are necessary for staff who work on vans
                                                                           , many respondents
made comments such as this: " It takes a really special person to work this unit - good
communication skills , good sound knowledge , a strong ego and the abi'lty to use their
skills without someone else to critique for them. . . staff have to be willing and enjoy
what they do. " Staf reportedly view problems as a challenge and "
                                                                      love working in the
van. " A physician described her work as: " an adventure. . . very '
                                                                     frontier . . . sort of a
pioneer , covered-wagon feeling.
 Logitical an Administrative Problems
 While all providers carry some sort of vehicle insurance , in some cases the cost of
 malpractice insurance is prohibitive. One project director said that some physicians wil
 not volunteer their servces on the van because the program cannot afford malpractice
 insurance. Elsewhere , a State university assumed title to the vehicle so that staff who
 work in it can be insured under the school's policy.
Logistically, the most common problem of operating in a van is an obvious one: lack
space. Scheduling and traffic control are critical to ensure that the flow of patients
through the van is smooth. Sometimes , intake or counseling must be done outside the
van , such as in a transitional hotel for the homeless , to relieve congestion in the van.
There are other problems as well. For example , since most vans observe a somewhat
complicated schedule of dates and sites , scheduling and coordination by administrators
 can be a lot of work " and very time-consuming. However , it appears that this becomes
easier as support staff become more familiar with a program and administrators find
more effcient ways to plan.
Recordkeeping is also a challenge. Many providers keep duplicate records
                                                                            , storing the
original record at their home base and a copy in the van , which is manually updated after
a visit. Recordkeeping can become backlogged given the crush of patients. Records also
require considerable storage space , which is at a premium in a van. For these reasons
many respondents are computerizing, or plan to computerize , their records. Two of them
say that they have heard of companies which are developing computerized recordkeeping
systems specifically for use by providers serving transient populations.
Inclement weather , insects , and bad roads must be contended with. Mechanical
problems are often a headache. Many providers described problems with generators
which they say are noisy and prone to breakdown. To bring the point home
                                                                              , one
respondent jokingly said: " Sometimes we yell ' Kill it!' because we can
                                                                         t hear a patient
heart. ... People wonder what s happening to the patient back there!"
Some respondents report that other providers who are interested in developing mobile
programs such as theirs have been discouraged to learn of both the expense and the work
involved.
    APPENDIX C





HCFA and PHS Comments




     C-l

            DEPARTMENT OF HEATH &. HUMAN                     SER\1	                         Public Health Service


(;J                                                                                         Memorandum
 Dllte

 From	      Assistant Secretary for Health

 Subject	   Office Of Inspector General (OIG) Draft Report " Health Care on
            Wh eel s ,   " - 0 E I - 05 - 89 - 0 1 332

            Iuspector General , OS



            At t a c he d are the PHS co         mm en t s    on the sub   j e c t   0 I G d r aft      e po r t .
            We gene ally concur with the report s recommendatiou to study
            alternative approaches to providiug health care particularly to
            the underserved populations. In that regard, the Agency for

            Health Care Policy and Research will inform the health care

            research community that it is accepting applications on

            innovative approaches to h alth care delivery.



                                                                (). Ik
                                                             Mason , M.    , Dr.

            AttachlDeC\t
                            COMMENTS OF THE FUBLIC HEATH SERVICE (PHS)

                             ON THE OFFICE OF INSPECTOR GENERA (OIG)

                               DRAT REPORT " HEATH CARE ON WHEELS"

                                  OEI- OS-89-01332, FEBRUARY 1990


General Comments

We generally agree with the intent of the report to improve
access to health care                   services.
                                  While mobile health services
have been used and studied in the past, they have not been
rigorously evaluated in terms of their impact on health benefits
and on costs. Consequently, further examination of mobile health
services delivery is warranted because of the emergence of

populations and problems which differ in kind, severity or

magni tude from those in earlier years. Also, there have been

technological advances  in health care since the earlier services
were delivered and their impact on the effectiveness and
efficiency of such services must be considered.

OIG Recommendation
The PHS should study the costs and benefits of mobile vans and
physician housecalls. particular consideration should be given
to supporting demonstrations and experimental           These projects.
should be evaluated with respect to 
                 ( 1) access to   care 1 (2) the
qua Ii ty of services; (3) the impact of services, including the
question of disease prevention; and (4) the costs of service
delivery.
PHS Conuents


We concur with the intent of this recommendation to study the
delivery of health care services on                 wheels.
                                             However, we believe
it is too early to give particular consideration to supporting
demonstration projects a8 the report recommends. Rather,
believe that targeting descriptive research projects and case
studies for support is more appropriate at this         For     stage.
example, we should seek to know:

           How extensive the services are? How many patients are
           served? What are the characteristics of the patients
           and of the providers? What areas are the services
           located in? To what extent is follow-up care, where
           indicated, actually provided? What are the funding
           sources? What quality assurance measures are employed?
           What is the quality of care provided? How do these
           factors vary in different models of health service
            deli very?
                                            C-3
                              ...                       ...



page

The Agency for Health Care Policy and Research (AHCPR) is
accepting applications on various innovative approaches to health
care and AHCPR plans to inform the health service research
communi ty of this through program announcementS. In particular,
AHCPR' s program priori ties in research on rural health care and
on health care for the disadvantaged (including the elderly, the
handicapped, and the poor) encompass issues of access which may
be addressed by mobile health service delivery.
Technical Comments

Page 1 , last paragraph, line 3 should read " 109 He4l th    re for
the Homeless Programs are funded by the Public Hea        Serv1ce
under the Stewart S. McKinney Homeless Assistance Act of 1987"
Page 7 , first paragraph, line 1 states that  ... 2 programs run
by not- far- profithospitals       the report should clarify
whether one or two different hospitals are being referred to in
the next sentence beginning with " One is a component




                            C-4

        ... ---
            : ':.::                             ._""              :.



=' I

                        ;) E P 'R     T"   E " :- 11 F H E                    H L \\ \ " "E R \   ICE"



                               I .

                                                                                                                        Memorandum
        : .3




                                  D.
                      Gail R. Wilensky. Ph.
                      AdministratOr
                      OIG Draft Repon .                      Health Care on Wheels,                OEI. OS. 89- 01332

                      The Inspector General
                      Office of the Secretary




                          We have reviewed the subject draft report. Ths report provides a description of
                      health care providers that serve medically                             underserved and uninsured populations in
                      public settings, or that make physician housecalls.

                          The report recommends that in implementing the new physician payment system
                      under Medicare, HCF A should carefully consider the appropriate weight for
                      payments for physician primary and urgent care housecalls. We agree with this
                      recommendation.

                         We also believe that there are potentially significant costs to Medicaid as well.
                      given recent Omnibus Budget Reconciliation Act of 1989 expansions of the Early
                      and Periodic Screening, Diagnosis and Treatment programs and maternal and child
                      benefits. It would be helpful if the report could also evaluate the impact of mobile
                      health services on these Medicaid programs.

                        Thank you for the opportunity to comment on this draft report. Please                               advise us
                      whether you agree with our position at your earliest convenience.




                                                                                      c-s

